                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

Case Number: A08100048                                                                                  Page 1 of 1



            Our inquiry determined that an allegation of plagiarism in three NSF proposals 1 submitted
    by the PI (subject)2 was substantive. The Institution's3 investigation concluded that the PI
    plagiarized materials into the three proposals and also concluded the subject's actions constituted
    research misconduct. We concurred with the Institution and recommended NSF make a finding of
    research misconduct.

             This memo, the attached Report of Investigation, and the Deputy Director's decision letter
     constitute the case closeout. Accordingly, this case is closed




    INSF Proposal EAR-0738989, entitled "HSIIPUI: Petrological, Textural and Geochemical Constraints on Magrna Mixing
    Relating to Prehistoric Eruptions at Augustine Volcano," was submitted by Dr. Brandon Browne (the subject), as the sole
    PI, Department of Geological Science, California State University, Fullerton; NSF Proposal EAR-0711369, entitled"
    PUIIHSI: Relating Variations in Eruption Style to Pre-Eruptive Gradients in       Reservoirs'                 Volcanic
                      submitted     the         as the sole . and NSF



         Dr. Brandon Browne.
     3   California State University, Fullerton.
                                      NATIONAL SCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




                                                  DEC 1· 0 2010 


        OFFICE OF THE 

       DEPUTY DIRECTOR 





   . VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED


    Dr. Brandon Browne 

    Department of Geological Sciences 

    California State University - Fullerton 

    800 N. State College Blvd. 

    Fullerton, CA 92834-6850 


           Re: Notice ofDebarment

    Dear Dr. Browne:

    On October 12,2010, the National Science Foundation ("NSF") issued to you a Notice of
    Proposed Debarment ("Notice"), in which NSF proposed to debar you from directly or indirectly
    obtaining the benefits of Federal grants for a period of one year. As ~ef1ected in the Notice, NSF
    proposed your debarment for sUbmitting three proposals to NSF which contained plagiru:ized
    material. In addition, NSF took additional administrative actions against you in accordance with
    NSF's regulations governing research misconduct.           .

    On November 1,2010, you filed a timely response to the Notice. In this response, you sought
    clarification regarding the duration of the debarment action, inquiring about the start and end
    dates of your debarment. In your response, you also informed NSF that you 'o/ere currently
    serving as the principal investigator on a cooperative agreement between your university and the
    U.S. Geological Survey ("USGS"). Consequently, you questioned the impact that your 

    debarment would have on your continued participation in connection with this cooperative 

    agreement 



    Scope and Duration ofDebarment

   . At the outset, I note that you have not disputed the facts relied upon by NSF to propose your
     debarment. For the reasons detailed more fully in the Notice, NSF believes that debarment is
    appropriate in this case. Thus, I am issuing to you this Notice of Debarment.

    Accordingly, you are debarred, effective today, until October 11, 2011. Debarment precludes
    you from receiving Federal financial and non-financial assistance and benefits under non­
    procurement Federal programs and activities unless an agency head or authorized designee




-------------                        . ._ - . _ . -   --­
                                                                                             - 2 ­
makes a detennination to grant an exception in accordance with 2 CFR 180.135. Non­
procurement transactions include grants, cooperative agreements, scholarships, fellowships,
contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for speci£1ed use,
and donation agreements.

 In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
 the Federal Acquisition Regulations at 48 CFR Subpart 9.4for the period of this debarment.
.2 CFR 180.925. During the debannent period, you may not have supervisory responsibility,
 primary management, substantive control over, or critical influence on, a grant, contract, or
 cooperative agreement with any agency of the Executive Branch of the Federal Government.

Pursuant to 2 CFR 180.350, you or your university ."must give immediate written notice" to
USGS that you have been debarred. Notwithstanding your current status, however, and at its
discretion, USGS may pennit you to continue to serve as principal investigator on the
cooperative agreement because the agreement was in existence at the time your debarment was
effectuated. 2 CFR 180.310(a). The decision as to whether to allow you to continue your work
in connection with the agreement, however, is USGS's to make -- NSF has no authority to make
this decision on behalf of USGS.


Other Adminisir~tivi '/ft!tions Remain In Place

Lastly, please note that, in the October 12, 2010, Notice, NSF also took the following actions
against you, which continue to remain in effect:

    • 	 From the end of your debarment period through October 10, 2014, you are required to
        submit certifications to NSF's Office of Inspector General that any proposals or reports
        you submit to NSF: do not contain plagiarized, falsified, or fabricated material. These .
        certifications must be submitted to NSF's Office of Illspector General.

    • 	 From the end of your debarment p~riod through October 10, 2014, you are required to
        submit assurances by a responsible official of your employer that any proposals or reports
        you submit to NSF do not contain plagiarized, falsified, or fabricated material. These
        assurances must be submitted to NSF's Office ofInspector General.

    • 	 You are prohibited from serving as an NSF reviewer, advisor, or consultant until
        September 30, 2013.

    • 	 You are required to complete an ethics training course on plagiarism no later than
        September 30, 2011. You must certify in writing to NSF's Office ofInspector General
        that such training has been completed.
                                                                                              - 3 ­

Appeal Procedures

Under NSF's regulations, you have 30 days, after receipt ofthis letter to submit an appeal ofthis
decision, in writing, to the Director ofNSF. 45 CFR 689.10(a). Any appeal should be addressed
to the Director at:                                                          .

                National Science Foundation 

                4201 Wilson Boulevard 

                Arlington, Virginia 22230 


If we do not receive your appeal within the 30-day period, this decision will become final.

  Should you have any questions, please do not hesitate to   cont~-'Assistant General
. Counsel, at (703) 292-8060.



                                                      Sincerely,



                                                      Cora B. Marrett
                                                      Acting Deputy Director
CONFIDENTIAL                                CONFIDENTIAL




      National Science Foundation 

       Office of Inspector· General 





                     Confidential 

                Report of Investigation 

               Case Number A-08100048 

                     2 June 2010 





                                      . NSF OlG Form 22b (11/06)
CoNFIDENTIAL                                                                       CoNFIDENTIAL


                                       Executive Summary

Allegation:
       Plagiarism and breach of confidentiality of merit review.

OIG Inquiry:
      Three NSF proposals submitted by the PI (the Subject) contained text and citations
      copied from multiple source documents, of which one was an NSF proposal the Subject
      received as an ad hoc merit reviewer. In his response, the Subject accepted responsibility
      for the copied text in the proposals. OIG referred the allegation to the Subject's
      Institution for investigation.

Institution Inquiry:
        The Institution's Inquiry Team determined that the Subject's proposals contained
       plagiarized materials, but categorized the copied as small scale "technical violations." It
        concluded that these were the result of sloppiness and/or laziness.

OIG Investigation
      OIG concluded the Inquiry Team failed to adequately evaluate the plagiarism that
      occurred. Therefore, OIG continued with its investigation.

       OIG determined that the Subject committed research misconduct.

       The Act: The Subject plagiarized a combined total of 127 lines of text in 3 proposals.
       The copied text also contained 17 citations to references (embedded citations). Further,
       the Subject breached the confidentiality of NSF merit review when he copied text into
       one of his proposals from an NSF proposal he received for ad hoc merit review.

       Intent: OIG concluded the Subject acted knowingly.

       Standard of Proof: The preponderance of the evidence supported the conclusion that
       the Subject plagiarized these materials, including the embedded citations to references,
       into his NSF proposals.

       Si2llificant Departure: OIG determined that the Subject's copying of text and citations
       as well as his breach of confidentiality of the NSF peer review process represented a
       significant departure from his research community's standards.

       Pattern: The Subject'ssubmission of three proposals to NSF containing plagiarized
       materials, during approximately a one-year period oftime, suggests that the Subject's
       actions were part of a pattern.

OIG Recommendations:
        • 	 Send a letter of reprimand to the Subject informing him that NSF has made a
            finding of research misconduct;




                                                 1
CoNFIDENDAL 	                                                                     CoNFIDENDAL


        • 	 Debar the Subject for a period of 1 year;

        • 	 Require the Subject to certify that proposals he submits to NSF do not contain
            plagiarized, falsified, or fabricated material for 3 years after the debarment period;

        • 	 Require the Subject to submit assurances by a responsible official of his employer
            that any proposals submitted by the Subject to NSF do not contain plagiarized;
            falsified, or fabricated material for 3 years after the debarment period;

        • 	 Bar the Subject from serving as a merit reviewer for 3 years;

        • 	 Require the Subject to certify his completion of a course in research ethics within
            1 year of the final disposition of the case.




                                              2

CONFIDENTIAL                                                                                 CONFIDENTIAL



                                                    OIG's Inquiry

As part of our inquiry, we reviewed three NSF proposals (proposals 1, 2, and 3)1 submitted by
the PI. "We determined that, collectively, the three proposals appeared to contain approximately
127 lineS~·df\c{)pied text, and 17 embedded citations, from 8 separate source documents , one of
                                                                                        2

which was an'NSF proposal the PI received for merit review. We wrote to the PI, and co-PI of
                                                                                 3
proposal 3, -to request their explanations regarding the apparently copied text.

Both responded. 4 The co-PI explained she did not write the sections in Proposal 3 that contained
the copied teXt. She said that the PI would have to answer questions regarding these sections.
In his response, the PI explained that he was "paralyzed with shock and humiliation"S since
receiving our letter. He acknowledged he had copied text from the NSF proposal he had
received for review. The Subject apologized for his carelessness and lack of oversight in his
writing and developing proposals.

After reviewing the responses, we determined that there was sufficient substance to the allegation
and referred the matter to the PI's (the Subject's) Institution6 for investigation. 7

                                                 Institution's Inquiry

The Institution convened an Inquiry Team (the Team) to determine whether an investigation was
warrantea. Based on its review, the Team found "instances of plagiarism, particularly in the
NSF grants that triggered the initial investigation."8 It also found some plagiarism, although
limited, in some of the Subject's other materials. It stated that "[w]hile there are undeniable
instances of plagiarism in [the Subject's] proposals, we would categorize them as 'technical
violations' and, in almost all cases, on a small scale."9 It concluded that the Subject's
"breaches" 10 were "examples of his sloppiness or laziness, or both, in the preparation of
background and definitional materials in his grant proposalS."ll It stated that "[i]n many cases,
any degree of similarity to [the Subject's] work and that of others was limited to 'boiler plate'
and common terminology over which there is no intellectual property right claim but for which


ITab A: (proposal 1) NSF Proposal EAR-0738989, entitled "HSIIPUI: Petrological, Textural and Geochemical 

Constraints on Magma Mixing Relating to Prehistoric Eruptions at Augustine Volcano," was submitted by Dr. 

Brandon Browne (the subject), as the sole PI, Department of Geological Science, California State University, 

Fullerton. (proposal 2) NSF Proposal EAR-0711369, entitled " PUlIHSI: Relating Variations in Eruption Style to 

Pre-Eruptive Gradients in Magma Reservoirs                                   " was. submitted 

the sole PI; and            NSF Prl'l.nn<:;}1 


submitted by the subject (PI) and 

2 Source documents included one 

3 Tab A. 

4 TabB. 

5 Tab B, Snbject, November 14, 2008 response, page 1. 

6 University of California at Fullerton (the Institution). 

7 Tab C. 

8 Tab D, Report, page 1. 

9lbid. 

10 lbid. 

11 lbid. 





                                                               3
CONFIDENITAL                                                                                     CONFIDENITAL


'similarity' can appear in any Turnitin.com or key 'work search. These do not constitute
plagiarism.',12 The Team determined that no additional investigation was necessary, based on
the extent of the plagiarism out office had identified.

Although there was no finding of research misconduct, the Team recommended possible actions,
including 1) placing a copy of OIG's referral letter and the Institution's inquiry report (the
Report) in the Subject's permanent Personnel Action File (P AF); 2) scrubbing his CV to remove
withdrawn proposals with an explanation for these changes placed in his JP AF; 3) completing
courses of action he outlined in his response to NSF's inquiry letter; 13 and 4) prohibiting his
application for or receivinf, grants except for those that exclusively benefit students for roughly
one year. The adjudicator 4 instituted these actions.

                                              OIG's Investigation

The Institution determined that the Subject did plagiarize, but that his plagiarism did not
constitute research misconduct. We concluded the Institution's acceptance of copied text,
including text copied from a confidential document, as "incidental" and the result of
"carelessness" and! or "laziness" was inadequate.

The Inquiry Team's conclusion regarding the "boiler plate" sections of the proposal is contrary
to NSF's expectation that all submitted proposals should display the highest scholarly standards
(GPG section I.D.3). Further, the Inquiry Team did not consider the act of copying citations
(embedded citations) within copied text. These embedded citations, copied along with the text,
suggest the Subject used the intellectual efforts of the authors of the source documents by
copying not only their words, but their intellectual efforts to find independent support for their
text.

Based on our analysis, we believe the Institution's Inquiry Team assessment of the allegations
does not meet the standards for OIG to accept the report as complete and accurate. IS Therefore,
we initiated our own investigation.

We notified the Subject that we were beginning our investigation following the receipt of the
Institution's report (Tab E). The Subject stated in his initial response to our office he:
    1) "inadvertently plagiarized,,16 in all three proposals,



12 Tab D, Report, pages 1 and 2.
13 Tab B, Subject's 14 November 2008 response, at page 7, the subject proposed to: "(1) Eviscerate the flawed
practices of my past and commit to a renewed effort of preserving intellectual property and eliminating plagiarism
by emolling in curricula offered at our Faculty Development Center . . . (2) Make an example of myself for
colleagues and students through yearly seminars on the magnitude of scientific originality ... (3) Develop a
comprehensive chapter in our Undergraduate Student and book that discusses anti-plagiarism and our universities
[sic] policies on academic dishonesty ... (4) Demonstrate to my Department Chair originality of all my proposals
submitted to NSF ..., through similar anti-plagiarism software tools used in this report for a recommended period of
2 years time."
14.                                                             _
15
     45 C.F.R. Part 689.9 (a).
16   Tab B, subject's response, page L


                                                         4
CDNFIDENTIAL                                                                         CDNFIDENTIAL


     2) was aware of anti-plagiarism software for several years, but never used it for his or his
        students' work,                                '
     3) had never had "a colleague suggested [sic] that [he] plagiarized a source until now,,,17
        and
     4) had informed his Departmental Chair and developed a course of action with him to
        prevent plagiarism in the future.

He said he had adopted his cut-and-paste technique based on two principal experiences. First
when he was "(1) in graduate school from senior-ranking graduate students and faculty in [his]
research lab group some I 0 years ago and (2) during a conversation [he] had with a NSF
Program Director at the "NSF Day" in late 2006.,,18

With regard to the first experience, he said:

         [T]he procedure involved spending the initial stages of proposal preparation
         brainstorming, where I would write freely on a variety of themes related to a
         proposal. It was during this stage that I was encouraged to cut-and-paste key
         phrases that had inspired or challenged me from pertinent references, my own or
         from colleagues, into my proposal document and bookmark them somehow (e.g..
         change font or text color) as to prevent any accidental plagiarism. Although your
         report clearly demonstrates the dangerous and embarrassing error of this method,
         the rationale was not to plagiarize but rather to use these phrases as reminders,
         talking-points, inspirations of new ideas and/or warnings of potential obstacles for
         me to consider as I developed and explored my thoughts.[19]

He described the second experience as follows:

While he was attending the NSF Day in November 2006 at San Diego State University.

         I had the opportunity to meet with an Earth Sciences NSF Program Director at
         that meeting who kindly allowed me to informally ask her questions about how I
         could learn ways to write proposals better. This was an incredibly positive
         moment for me as a junior faculty member who had never met a program director
         before and who passionately wanted to learn from her experiences so I could
         grow and develop as a pro(essional. I vividly recall being told by her and others in
         the room that the single best way to learn how to write a successful proposal was
         to study other proposals written by experts in your field. I was advised to study
         these proposals and use them as models to become skilled at how to organize
         them, how to structure a research plan, how to review previous work, and how to
         write a budget. This advice is exactly right in terms of the benefit of learning how
         to, craft a proposal as long as the person using it fully appreciates the sensitivity



17 Ibid. page 2.
18 Ibid. page 2.
19 Ibid. pages 2 and 3.




                                                  5

CoNFIDENTIAL                                                                                       CoNFIDENTIAL


         and reverence that must be shown to both the proposal and its author when doing
         soyol

                                               OIG's Assessment

NSF's Research Misconduct Regulation states that a finding of misconduct requires:

         (1) There be a significant departure from accepted practices of the relevant
         research community; and (2) The research misconduct be committed
         intentionally, or knowingly, or recklessly; and (3) The allegation be proven by a
         preponderance of the evidenceYll

Based on the Subject's responses, we conclude that he understood the concept ofplagiarism. His
explanation concerning his method of employing cut-and-paste techniques clearly shows he was
aware ofthe need to rewrite or properly attribute the words he copied from other sources. Further,
the Subject admits he used the confidential NSF proposal he received for review to cut-and-paste
text,22 from a proposal that he agreed to keep confidentiaL 23

                                                       The Act

Our investigation determined that the Subject copied approximately 127 unique lines oftext into 3
proposals, including 17 embedded citations, taken from 8 separate source documents,24 one of
which Wa$ an NSF proposal he had received for merit review. The total amount of plagiarized
material is significant, the text alone representing more than 3 pages (see table below). Further,
the number of embedded citations copied along with the plagiarized text is significant. He used
the intellectual efforts of the original authors not only by copying the text each wrote, but the
research support for the text. The fact that the Subject copied the citations suggests that he did not
read them but merely copied them along with the text. This is supported by the fact that 3 of these
embedded citations are not included in the proposal's reference section (see table below).




20 Ibid. page 4. 

21 45 C.F.R. § 689.2(c). 

22 Tab B, subject's response, page 5. 




23 The following statement is what each ad hoc reviewer must agree to prior to reviewing any NSF proposal. "The 

Foundation receives proposals in confidence and protects the confidentiality of their contents. For this reason, you 

must not copy, quote from, or otherwise use or disclose to anyone, including your graduate students or post-doctoral 

or research associates, any material from any proposal you are asked to review. Unauthorized disclosure of 

confidential information could subject you to administrative sanctions. If you believe a colleague can make a 

substantial contribution to the review, please obtain permission from the NSF Program officer before disclosing 

either the contents of the proposal or the name of any applicant or principal investigator. When you have completed 

your review, please be certain to destroy the proposal." http://www.fastlane.nsf.gov/index.jsp , then open site for 

proposal),

24 The eight source documents included I NSF Proposal received by the subject for merit review, 5 publications, and
2 online websites.


                                                         6

CoNFIDENTIAL                                                                                       CoNFIDENTIAL


     Proposal        Number ofLines          Number ofEmbedded                  Embedded Citations Not
                                               Citations used only             Included in the Proposal's
                                             within Plagiarized Text                Reference List
          1                   65                           8                                0
          2                   28                           2                                   2
         3                    34                              7                                1
        Total                127                          17                                   3



Based on the Subject's responses, we concluded that the Subject acted knowingly when he copied
text and citations into his NSF proposals. The Subject admitted to knowing what plagiarism was
and acknowledged that he copied the text.

                                                Standard ofProof

A finding of research misconduct requires proofby a preponderance of the evidence. We
concluded the preponderance of the evidence indicates that the Subject copied these materials into
his proposals without appropriately distinguishing the text from his own work. In copying 127
lines oftext and 17 embedded references, the Subject significantly departed from the generally
accepted practices of scholarship in the geology community.25

Since the preponderance of evidence supports the conclusion that the Subject acted knowingly
when he copied these materials, we conclude the Subject plagiarized and, therefore, committed
research misconduct.

                                                Subject's Response

We wrote to the subject on March 1,2010 providing a copy ofthe draft investigation report (Tab
E). The subject's March 11,2010, response26 reiterates some of his earlier statements, and did
not cause us to alter the substance of our report.


                           Institution's Response Concerning RCR InfOrmation
Because the Subject, in his response, claimed no previous Responsible Conduct in Research
(RCR) training,27 we wrote to the Institution requesting information regarding its RCR efforts for
faculty.28 The Institution's response to our inquiry is also attached to this report. 29



25 " 'Plagiarism is the copying of ideas, data or text (or various combinations of the three) without permission or 

acknowledgment' .... Plagiarism is a form of scientific misconduct; it is dishonest and misleading to readers." See: 

http://www.elsevier.com/wps/findleditorsinfo.editors/ethicsglossary. Journal ofVolcanology and Geothermal 

Research - Elsevied            ~.                                         .                              .

26 Tab E 

27 Tab E, January 25, 2010, Communications with Subject. 

28 Tab F     .

29 Tab F 





                                                          7
CONFIDENTIAL                                                                         CONFIDENTIAL




                                OIG's Recommended Disposition

In deciding what actions are appropriate when making a finding of research misconduct, NSF must
consider several factors. These factors include how serious the misconduct was; the degree of
intent, whether it was an isolated event or part of a pattern; its impact on the research record; and
other relevant circumstances. 3o

                                             Seriousness

Plagiarism strikes at the heart of research integrity and is an unacceptable practice within the
research community. In addition,

       NSF expects strict adherence to the rules of proper scholarship and attribution.
       The responsibility for proper attribution and citation rests with authors of a
       proposal; all parts of the proposal should be prepared with equal care for this
       concern. 31

The amount of plagiarized text was substantive. In addition, the 17 embedded citations
incorporated as part ofthe plagiarized text supports the conclusion that the Subject copied and
pasted these sections of text, inappropriately using the intellectual efforts of the authors who wrote
the original text, and, thereby, enhancing his own apparent efforts. Further, one ofthe source
documents is an NSF proposal he received for merit review. His breach of confidentiality raises
the seriousness because 1) materials copied from confidential documents are more difficult to
discover and, therefore, can go undetected, 2) his potential professional gain could be enhanced by
using the newer, more novel work of others, and 3) abuse of the merit review process threatens
researchers who already fear their work might be taken inappropriately. The amount of copied
text in conjunction with the number of copied citations for references and the breach of
confidentiality makes the Subject's actions very serious.

                                          Degree ofIntent

As a result of our investigation, we found no evidence to mitigate our conclusion that the Subject
knowingly plagiarized text into 3 NSF proposals he submitted over about a one-year period.
Although the Subject had no previous Responsible Conduct in Research Training,32 his
explanation of his cutting and pasting text technique from other documents shows that he
understood the concept of plagiarism and techniques for avoiding such misconduct. In addition,
the Subject has authored several journal articles and received his B.S., M.S., and Ph. D. degrees
from U.S. institutions at which he could reasonably be expected to have had learned responsible
conduct. We conclude that the Subject's actions were distinctly knowing.



30
   45 CFR § 689.3(b). 

31 GPG section LB.(10/2003). 

32 Tab E, _ , Communications with Subject. 





                                                 8

CONFIDENTIAL 	                                                                                       CONFIDENTIAL


                                                       Pattern

The Subject submitted these three proposals over approximately one year. 'The Subject's actions
were a part of a patter,n.

                                          Impact on the research record

There is no evidence of any impact on the research record as a result of the plagiarism in the
proposals submitted to NSF.

                                                 Recommendation

Based on the evidence, OIG recommends that NSF:

             • 	 Send a letter of reprimand to the Subject informing him that NSF has made a
                 finding of research misconduct;33            .

             • 	 Debar the Subject for a period of 1 year;34

             • 	 Require the Subject to certify35 that proposals he submits to NSF do not contain
                 plagiarized, falsified, or fabricated material for 3 years after the debarment
                 period;36

             • 	 Require the Subject to submit assurances by a responsible official of his employer
                 that any proposals submitted by the Subject to NSF do not contain ~lagiarized,
                 falsified, or fabricated material for 3 years after the debarment period;3

             • 	 Bar the Subject from serving as a merit reviewer for 3 years;38 and

             • 	 Require the Subject to certify his completion of a course in research ethics within
                 1 year of the final disposition of the case?9 .                               .




33A letter of reprimand is a Group I action (45 C.F.R. § 689.3(a){l)(i)). 

34 Debarment is a Group III action (45 C.F.R. §689.3(a)(3)(iii)). 

35 All certifications and assurances should be submitted directly to the Assistant Inspector General for Investigations 

   at NSFIOIG.
36Certification by an individual is equivalent to a Group I action (45 C.F.R. § 689.3(a){l)).
37 Assurance of compliance is a Group I action 45 C.F.R. (45 C.F.R. § 689.3(a){l)(iii)).
38 Prohibition from serving as a reviewer is a Group III action (45 C.F.R. § 689.3(a)(3)(ii)).
39 Certification by an individual is equivalent to a Group I action (45 C.F.R. § 689.3(a)(l)).


                                                           9
